FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
                     Financial Statements

                 December 31, 2006 and 2005

          (With Independent Auditors’ Report Thereon)
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                           Independent Auditors’ Report


To the Federal Financial Institutions Examination Council:

We have audited the accompanying balance sheets of the Federal Financial Institutions Examination
Council (the Council) as of December 31, 2006 and 2005, and the related statements of revenues and
expenses and changes in cumulative results of operations, and cash flows (hereinafter referred to as
“financial statements”) for the years then ended. These financial statements are the responsibility of the
Council’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Council’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financial Institutions Examination Council, as of December 31, 2006 and
2005, and the results of its operations, and its cash flows, for the years then ended, in conformity with U.S.
generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated March 7, 2007,
on our consideration of the Council’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




March 7, 2007




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                   FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

                                          BALANCE SHEETS
                                                                                       DRAFT
                                                                                    March 13, 2007
                                                                                     7:18:28 AM
                                                                                As of December 31,
                                 ASSETS                                        2006                2005

CURRENT ASSETS

    Cash                                                                $      656,600       $      598,259
    Accounts receivable from member organizations (Note 3)                     997,342            1,808,511
    Other accounts receivable                                                  243,181              557,347

         Total current assets                                                1,897,123            2,964,117

CAPITAL ASSETS

    Furniture and equipment, at cost                                            56,121               60,446
    Central Data Repository, at cost (Note 4)                               12,905,335           12,055,244
    Less accumulated depreciation                                           (2,947,171)            (629,743)

         Net capital assets                                                 10,014,285           11,485,947

         Total assets                                                   $ 11,911,408         $ 14,450,064




    LIABILITIES AND CUMULATIVE RESULTS OF OPERATIONS

CURRENT LIABILITIES

    Accounts payable and accrued liabilities
          payable to member organizations                               $      797,093       $ 1,099,400
    Other accounts payable and accrued liabilities (Note 4)                    645,438         1,482,102
    Accrued payroll and annual leave                                           313,038           297,202
    Deferred revenue (current portion) (Note 4)                              2,355,548         2,277,189

         Total current liabilities                                           4,111,117            5,155,893

LONG-TERM LIABILITIES

    Deferred revenue (non-current portion) (Note 4)                          7,658,737            9,208,758
    Deferred rent (Note 5)                                                      58,164               75,604

         Total long-term liabilities                                         7,716,901            9,284,362

         Total liabilities                                                  11,828,018           14,440,255

CUMULATIVE RESULTS OF OPERATIONS                                                83,390                9,809

         Total liabilities and cumulative results of operations         $ 11,911,408         $ 14,450,064




                             See accompanying notes to financial statements.

                                                     2
                  FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

                        STATEMENTS OF REVENUES AND EXPENSES
                   AND CHANGES IN CUMULATIVE RESULTS OF OPERATIONS




                                                                    For the years ended December 31,
                                                                           2006            2005
REVENUES
    Central Data Repository (Note 4)                                  $ 5,650,751      $ 3,205,813
    Home Mortgage Disclosure Act (Note 6)                               2,777,980        2,574,809
    Tuition                                                             2,066,960        1,991,263
    Community Reinvestment Act                                            800,839          821,390
    Uniform Bank Performance Report                                       595,781          524,350
    Assessments on member organizations (Note 3)                          548,800          419,055
    Appraisal Subcommittee                                                189,397          183,566

          Total revenues                                                  12,630,508       9,720,246

EXPENSES
    Professional fees (Note 4)                                             4,041,444       3,241,435
    Data processing                                                        3,888,362       3,623,133
    Depreciation (Note 4)                                                  2,321,753         569,297
    Salaries and related benefits                                          1,349,310       1,303,342
    Rental of office space                                                   469,860         437,564
    Administration fees (Note 3)                                             183,000         175,000
    Travel                                                                    98,582         116,098
    Books and subscriptions                                                   98,160          98,361
    Rental and maintenance of office equipment                                33,293          50,775
    Printing                                                                  26,210          14,468
    Office and other supplies                                                 21,026          35,506
    Other seminar expenses                                                    11,801          71,285
    Postage                                                                   10,571          17,195
    Miscellaneous                                                              3,555           1,294

          Total expenses                                                  12,556,927       9,754,753

RESULTS OF OPERATIONS                                                        73,581          (34,507)

CUMULATIVE RESULTS OF OPERATIONS, Beginning of year                           9,809          44,316

CUMULATIVE RESULTS OF OPERATIONS, End of year                         $      83,390    $      9,809




                           See accompanying notes to financial statements.

                                                 3
                   FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

                                   STATEMENTS OF CASH FLOWS




                                                                     For the years ended December 31,
                                                                            2006            2005
CASH FLOWS FROM OPERATING ACTIVITIES

RESULTS OF OPERATIONS                                                  $       73,581     $     (34,507)
Adjustments to reconcile results of operations to net cash
  provided by operating activities:
     Depreciation                                                          2,321,753            569,297
     (Increase) decrease in assets:
           Accounts receivable from member organizations                      811,169           957,169
           Other accounts receivable                                          314,166          (325,936)
     Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities to
                member organizations                                         (302,307)           348,351
           Other accounts payable and accrued liabilities                    (836,664)        (1,029,787)
           Accrued payroll and annual leave                                    15,836             79,466
           Deferred revenue (current and non-current)                      (1,471,662)         2,402,187
           Deferred rent                                                      (17,440)            (4,441)
                  Net cash provided by operating activities                   908,432          2,961,799

CASH FLOWS FROM INVESTING ACTIVITIES
    Capital expenditures (Note 4)                                             (850,091)       (2,971,484)
                 Net cash used in investing activities                        (850,091)       (2,971,484)

NET INCREASE (DECREASE) IN CASH                                                58,341             (9,685)

CASH BALANCE, Beginning of year                                               598,259           607,944

CASH BALANCE, End of year                                              $      656,600     $     598,259




                            See accompanying notes to financial statements.

                                                    4
              FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
                        NOTES TO FINANCIAL STATEMENTS
           AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005




(1) ORGANIZATION AND PURPOSE

   The Federal Financial Institutions Examination Council (the "Council") was established under Title X of
   the Financial Institutions Regulatory and Interest Rate Control Act of 1978. The purpose of the Council
   is to prescribe uniform principles and standards for the federal examination of financial institutions and to
   make recommendations to promote uniformity in the supervision of these financial institutions. The five
   agencies which are represented on the Council, referred to hereinafter as member organizations, are as
   follows:


        Board of Governors of the Federal Reserve System (FRB)
        Federal Deposit Insurance Corporation (FDIC)
        National Credit Union Administration (NCUA)
        Office of the Comptroller of the Currency (OCC)
        Office of Thrift Supervision (OTS)

   In accordance with the Financial Services Regulatory Relief Act of 2006, a representative state regulator
   was added as a full voting member of the FFIEC in October 2006.


   The Council was given additional statutory responsibilities by section 340 of the Housing and Community
   Development Act of 1980, Public Law 96-399. Among these responsibilities are the implementation of a
   system to facilitate public access to data that depository institutions must disclose under the Home
   Mortgage Disclosure Act of 1975 (HMDA) and the aggregation of annual HMDA data, by census tract,
   for each metropolitan statistical area.

   Appraisal Subcommittee
   The Council's financial statements do not include financial data for the Appraisal Subcommittee. The
   Appraisal Subcommittee of the Council was created pursuant to Public Law 101-73, Title XI of the
   Financial Institutions Reform, Recovery, and Enforcement Act of 1989. The functions of the Appraisal
   Subcommittee are related to the certification and licensing of individuals who perform appraisals in
   connection with federally related real estate transactions. Members of the Appraisal Subcommittee
   consist of the designees of the heads of those agencies which comprise the Council and the designee of
   the head of the Department of Housing and Urban Development.


   All functions and responsibilities assigned to the Council under Title XI are performed directly by the
   Appraisal Subcommittee without any need for approval or concurrence from the Council. The Appraisal
   Subcommittee has its own policies and procedures and submits its own Annual Report to the President
   of the Senate and Speaker of the House. The Council is not responsible for any debts incurred by the
   Subcommittee, nor are Subcommittee funds available for use by the Council.




                                                           5
              FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
                        NOTES TO FINANCIAL STATEMENTS
           AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005




(2) SIGNIFICANT ACCOUNTING POLICIES

   The Council prepares its financial statements in accordance with accounting principles generally
   accepted in the United States based upon accounting standards issued by the Financial Accounting
   Standards Board (FASB).

   The financial statements have been prepared on the accrual basis of accounting.

   Revenues
   Assessments made on member organizations for operating expenses and additions to property are
   based on expected cash needs. Amounts over- or under- assessed due to differences between actual
   and expected cash needs flow into "Cumulative Results of Operations" during the year and then are
   used to offset or increase the next year's assessment. Deficits in "Cumulative Results of Operations"
   can be made up in the following year's assessments.

   Tuition revenue is adjusted at year-end so that total tuition revenue equals expenses incurred by the
   Examiner Education office. Any difference between revenue and expense is reported in accounts
   payable to member organizations if revenue exceeds expense, and in accounts receivable from member
   organizations if expenses exceed revenue.


   Capital Assets
   Furniture and equipment is recorded at cost less accumulated depreciation. Depreciation is calculated
   on a straight-line basis over the estimated useful lives of the assets, which range from four to ten years.
   Upon the sale or other disposition of a depreciable asset, the cost and related accumulated depreciation
   are removed from the accounts and any gain or loss is recognized. The Central Data Repository (CDR),
   a software project, is recorded at cost. (See Note 4)


   Deferred Revenue
   Deferred revenue represents cash collected and accounts receivable related to the CDR. (See Note 4)

   Estimates
   The preparation of financial statements in conformity with accounting principles generally accepted in the
   United States of America requires management to make estimates and assumptions that affect the
   reported amounts of assets and liabilities and the disclosure of contingent assets and liabilities at the
   date of the financial statements and the reported amounts of revenues and expenses during the
   reporting period. Actual results could differ from those estimates.




                                                          6
              FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
                        NOTES TO FINANCIAL STATEMENTS
           AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005




(3) TRANSACTIONS WITH MEMBER ORGANIZATIONS

   Accounts Receivable from Member Organizations
                                                                                    2006          2005
        Board of Governors of the Federal Reserve System                       $    169,562    $   306,704
        Federal Deposit Insurance Corporation                                       583,844      1,426,385
        National Credit Union Administration                                         63,880              0
        Office of the Comptroller of the Currency                                   111,909         58,160
        Office of Thrift Supervision                                                 68,147         17,262
                                                                               $    997,342    $ 1,808,511


   The five member organizations are each assessed one-fifth of the
   expected cash needs based on the annual operating budget. The
   annual assessment for each member organization was:              $               109,760    $     83,811


   The Council provides seminars in the Washington area and at regional
   locations throughout the country for member organization examiners
   and other agencies. The Council received tuition payments from
   member organizations in the amount of:                                          1,933,215       1,858,296

   FRB provided administrative support services to the Council at a cost of:        183,000         175,000


   Member organizations provided office space, data processing related to
   Home Mortgage Disclosure Act (HMDA) and Community Reinvestment
   Act (CRA), and printing services to the Council. The Council paid
   member organizations:                                                           3,674,682       3,809,989

   The Council coordinates the production and distribution of the Uniform Bank Performance Reports
   (UBPR) through the FDIC. The Council is reimbursed for the direct cost of the operating expenses it
   incurs for this project.


   The Council does not directly employ personnel but rather member organizations provide personnel to
   support Council operations. These personnel are paid through the payroll systems of member
   organizations. Salaries and fringe benefits, including retirement benefit plan contributions, are
   reimbursed to these organizations. The Council does not have any post-retirement or post-employment
   benefit liabilities since Council personnel are included in the plans of the member organizations.


   Member organizations are not reimbursed for the costs of personnel who serve as Council members and
   on the various task forces and committees of the Council. The value of these contributed services has
   not been included in the accompanying financial statements.




                                                         7
              FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
                        NOTES TO FINANCIAL STATEMENTS
           AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005




(4) CENTRAL DATA REPOSITORY

   In 2003, the Council entered into a ten year agreement with UNISYS, totaling approximately $40 million,
   to enhance the methods and systems used to collect, validate, process, and distribute Call Report
   information, and to store this information in a Central Data Respository (CDR)


   The CDR was placed into production in October 2005. At that time, the Council began depreciating the
   CDR project on the straight-line basis over its estimated useful life of sixty-three months. The Council
   records depreciation expense and recognizes the same amount of deferred revenue. The value of the
   CDR asset includes the fully accrued and paid cost.
                                                                                2006             2005
        Capital asset CDR
             Beginning balance                                              $11,955,244      $ 9,083,760
             Capital expenditures                                               358,000        2,871,484
             Software in use                                                 12,313,244       11,955,244
             Software in process                                                592,091          100,000
             Total asset                                                    $12,905,335      $12,055,244

        Other accounts payable and accrued liabilities
             Payable to UNISYS for the CDR project                          $   576,443      $ 1,428,574
             Other vendors unrelated to the CDR project                          68,995           53,528
             Total other accounts payable and accrued liabilities           $   645,438      $ 1,482,102

        Revenues - Central Data Repository
        The Council is funding the project by billing the three participating Council member organizations
        (FRB, FDIC, and OCC) (See Note 2). The OCC's participation in cost sharing will not begin until
        the UBPR portion of the CDR becomes operational.

             Deferred revenue:
                 Beginning balance                                          $11,485,947      $ 9,083,760
                 Additions                                                      850,091        2,971,484
                 Less: Revenue recognized                                    (2,321,753)        (569,297)
                 Ending balance                                             $10,014,285      $11,485,947

                 Current portion deferred revenue                           $ 2,355,548      $ 2,277,189
                 Long-term deferred revenue                                   7,658,737        9,208,758
                                                                            $10,014,285      $11,485,947
             Total CDR revenue:
                 Deferred revenue                                           $ 2,321,753      $   569,297
                 Hosting and maintenance fees                                 3,328,998        2,636,516
                 Total CDR revenue                                          $ 5,650,751      $ 3,205,813




                                                         8
              FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
                        NOTES TO FINANCIAL STATEMENTS
           AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005




                                                                                2006             2005
        Professional fees
             Hosting and maintenance fees for the CDR project               $ 3,328,998     $ 2,636,516
             Other professional fees unrelated to the CDR project               712,446         604,919
             Total professional fees                                        $ 4,041,444     $ 3,241,435

        Depreciation
            Depreciation for the CDR project                                $ 2,321,753      $   569,297
            Other depreciation unrelated to the CDR project                           0                0
            Total depreciation                                              $ 2,321,753     $    569,297

        Average monthly amortization                                        $   193,479     $    189,766

(5) DEFERRED RENT

   In 1998, the Council entered into a lease for office space at 2000 K Street, Washington, DC. This lease
   contains rent abatements and scheduled rent increases. In 2005, the Council entered into a lease for
   office and classroom space at an FDIC facility that contains scheduled rent increases over the term of
   the lease. In accordance with accounting principles generally accepted in the United States of America,
   rent abatements and scheduled rent increases must be considered in determining the annual rent
   expense to be recognized. The deferred rent represents the difference between the actual lease
   payments and the rent expense recognized.



(6) OTHER REVENUE

                                                                                2006             2005
   Home Mortgage Disclosure Act (HMDA)
       The Council recognized the following revenue from member
       organizations for the production and distribution of reports under
       the HMDA:                                                            $ 1,880,259     $ 1,786,287

        The Council recognized the following revenue from the
        Department of Housing and Urban Development's participation in
        the HMDA project:                                                       589,547          503,004

        The Council recognized the following revenue from the Mortgage
        Insurance Companies of America for performing HMDA related
        work:                                                                   287,481          258,257

        The balance of the HMDA revenue for 2006 and 2005 was from
        sales to the public:                                                     20,693           27,261

        Total HMDA                                                          $ 2,777,980     $ 2,574,809



                                                         9
             FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL
                       NOTES TO FINANCIAL STATEMENTS
          AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2006 AND 2005




   Community Reinvestment Act (CRA)
      The Council recognized revenue for support of operating expenses from the participating member
      agencies.

   Uniform Bank Performance Report (UBPR)
        The Council recognized revenue for coordinating and providing certain administrative support to
        the UBPR project.

   Appraisal Subcommittee
        The Council recognized revenue for providing space to the Appraisal Subcommittee.


(7) OPERATING LEASES

   The Council entered into operating leases to secure office and classroom space. Minimum future rental
   commitments under those operating leases having an initial or remaining noncancellable lease term in
   excess of one year at December 31, 2006 are as follows:

                                        2007                              $   467,203
                                        2008                                  417,980
                                        2009                                  255,261
                                        2010                                        0
                                        2011                                        0
                                                                          $ 1,140,444


   Rental expenses under these operating leases were $469,860 and $437,564 in 2006 and 2005,
   respectively.




                                                      10
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                           Independent Auditors’ Report on Internal Control


To the Federal Financial Institutions Examination Council:

We have audited the balance sheets of the Federal Financial Institutions Examination Council (the Council)
as of December 31, 2006 and 2005, and the related statements of revenues and expenses and changes in
cumulative results of operations, and cash flows (hereinafter referred to as “financial statements”) for the
years then ended, and have issued our report thereon dated March 7, 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of the Council is responsible for establishing and maintaining effective internal control.
In planning and performing our 2006 audit, we considered the Council’s internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
financial statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in Government Auditing Standards. The objective of our audit was not to express an
opinion on the effectiveness of the Council’s internal control over financial reporting. Accordingly, we do
not express an opinion on the effectiveness of the Council’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the Council’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of the Council’s financial statements that is more than inconsequential will
not be prevented or detected by the entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be prevented
or detected by the Council’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described in the
first paragraph of this section and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above.




                                                                         11
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
We noted certain matters that we reported to the management of the Council in a separate letter dated
March 7, 2007.

This report is intended solely for the information and use of the Council’s management, the Office of
Inspector General of the Board of Governors of the Federal Reserve System, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




March 7, 2007




                                                  12
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


To the Federal Financial Institutions Examination Council:

We have audited the balance sheets of the Federal Financial Institutions Examination Council (the Council)
as of December 31, 2006 and 2005, and the related statements of revenues and expenses and changes in
cumulative results of operations, and cash flows (hereinafter referred to as “financial statements”) for the
years then ended, and have issued our report thereon dated March 7, 2007.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement.

The management of the Council is responsible for complying with laws, regulations, and contracts
applicable to the Council. As part of obtaining reasonable assurance about whether the Council’s financial
statements are free of material misstatement, we performed tests of the Council’s compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and material
effect on the determination of the financial statement amounts. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to the Council. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards.

This report is intended solely for the information and use of the Council’s management, the Office of
Inspector General of the Board of Governors of the Federal Reserve System, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




March 7, 2007




                                                                        13
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
